AUDIT OF OFFICE ON VIOLENCE AGAINST WOMEN

GRANT TO REDUCE DOMESTIC VIOLENCE, DATING 

VIOLENCE, SEXUAL ASSAULT, AND STALKING ON

       CAMPUS PROGRAM AWARDED TO

    EAST CENTRAL UNIVERSITY, OKLAHOMA




         U.S. Department of Justice

       Office of the Inspector General

                Audit Division



         Audit Report GR-60-12-014

                 July 2012

 AUDIT OF OFFICE ON VIOLENCE AGAINST WOMEN GRANT TO 

  REDUCE DOMESTIC VIOLENCE, DATING VIOLENCE, SEXUAL

ASSAULT, AND STALKING ON CAMPUS PROGRAM AWARDED TO 

          EAST CENTRAL UNIVERSITY, OKLAHOMA


                              EXECUTIVE SUMMARY


      The Office of the Inspector General, Audit Division, has
completed an audit of Grant Number 2007-WA-AX-0004, awarded by
the Office on Violence Against Women (OVW), to East Central
University (ECU), Oklahoma, in the amount of $1,699,999 under the
Grants to Reduce Domestic Violence, Dating Violence, Sexual Assault,
and Stalking On Campus Program.

      The Grants to Reduce Violent Crimes Against Women on Campus
Program was authorized by the Higher Education Amendments of
1998, reauthorized by the Violence Against Women Act of 2000, and
then by the Violence Against Women and Department of Justice
Reauthorization Act of 2005. The program provides a unique
opportunity for institutions of higher education to establish
multidisciplinary consortia to combat violent crimes against women on
campuses. These comprehensive efforts are designed to enhance
victim services, implement prevention and education programs, and
develop and strengthen security and investigation strategies in order
to prevent and respond to domestic violence, dating violence, sexual
assault, and stalking crimes on campuses.

       ECU is a four-year public university located in the rural city of
Ada, Oklahoma. ECU will serve as the lead institution along with five
member institutions in this flagship initiative. 1 The five member
institutions include Northeastern State University (NSU), Northwestern
Oklahoma State University (NWOSU), Southeastern Oklahoma State
University (SOSU), Southwestern Oklahoma State University
(SWOSU), and the University of Central Oklahoma. All of these
institutions represent the Regional University System of Oklahoma


       1
          Flagship projects consist of two or more institutions of higher education that
share and are accountable to a common legislature, board of regents, governing
board, or system with enforcement capabilities. One institution is designated as the
principle institution and must be able to demonstrate competence and effective
implementation of prior Campus Program awards for at least two grant periods, or four
years. The principle institution will utilize key practices, policies, project activities, and
products already in existence to lead other schools within their system to implement
and incorporate them onto their respective campuses.
(RUSO) who will be serving approximately 42,795 students during this
grant.

      The RUSO Violence Prevention Project (VPP) will be the first
attempt in the Oklahoma system of higher education to collectively
and collaboratively address domestic violence, dating violence, sexual
assault and stalking. Of the six institutions, ECU was the only one to
create this specific program to address these issues.

       The purpose of this audit was to determine whether
reimbursements claimed for cost under the grant were allowable,
supported, and in accordance with applicable laws, regulations,
guidelines, and terms and conditions of the grant. The objective of our
audit was to assess risks and review performance in the following
areas: (1) internal control environment; (2) drawdowns; (3) grant
expenditures, including personnel and indirect costs; (4) budget
management and control; (5) matching; (6) property management;
(7) program income; (8) financial and progress reports; (9) grant
requirements; (10) program performance and accomplishments; and
(11) monitoring of subgrantee and contractors. We determined that
matching costs, property management, program income, and
monitoring of subgrantee and contractors were not applicable to this
grant. As shown in Exhibit 1, East Central University was awarded a
total of $1,699,999 to implement the grant.

EXHIBIT 1:	 OVW GRANT AWARDED TO EAST CENTRAL
            UNIVERSITY
                     AWARD                   AWARD END
  GRANT AWARD         TYPE      AWARD DATE     DATE       AWARD AMOUNT
2007-WA-AX-0004      Original   08/28/2007   08/31/2010     $ 999,999
2007-WA-AX-0004    Supplement   09/24/2010   08/31/2012       700,000
                                                Total:    $ 1,699,999
Source: OJP Grants Management System (GMS)

      We examined ECU’s accounting records, financial and program
reports, and operating policies and procedures, and found:

   •	 the Federal Financial Reports and Program Reports were 

      submitted in a timely manner;


   •	 ECU adhered to the 10 percent rule;

   •	 payroll and indirect costs were accurate; and



                                    ii
  •	 no indication that ECU’s Campus Program has not been on track
     to accomplish the goals and objectives of the grants.

      ECU’s policies and procedures provided for segregation of duties,
transaction traceability, and adequate internal controls. However,
during our review, we identified:

  •	 $307,120 in advanced payments to the member institutions that
     remain unspent because ECU did not base drawdowns on actual
     expenditures;

  •	 $18,742 in interest earned over the life of the grant;

  •	 Federal Financial Reports were not based on actual expenses;
     and

  •	 we could not confirm some of the data reported in the Program
     Reports.

     These items are discussed in detail in the Findings and
Recommendations section of the report. Our audit objectives, scope,
and methodology are discussed in Appendix I.




                                  iii
                              TABLE OF CONTENTS


INTRODUCTION........................................................................ 1

     Background.......................................................................... 2

          East Central University ......................................................

          Campus Program ............................................................ 3

     Our Audit Approach............................................................... 4

FINDINGS AND RECOMMENDATIONS ....................................... 6

     Internal Control Environment ................................................. 6

          Single Audit ................................................................... 6

          Financial Management System.......................................... 6

     Drawdowns .......................................................................... 7

     Budget Management and Control ............................................ 8

     Grant Expenditures ............................................................... 9

          Personnel Costs .............................................................10

          Indirect Costs ................................................................10

     Reports ..............................................................................12

          Financial Reports ...........................................................12

          Program Reports............................................................13

     Program Performance and Accomplishments ...........................14

     Recommendations ...............................................................15

APPENDIX I: OBJECTIVES, SCOPE, AND METHODOLOGY ........ 17

APPENDIX II: SCHEDULE OF DOLLAR-RELATED FINDINGS..... 19

APPENDIX III: EAST CENTRAL UNIVERSITY RESPONSE TO THE

     DRAFT REPORT ................................................................. 20

APPENDIX IV: OVW RESPONSE TO THE DRAFT REPORT ......... 25

APPENDIX V: OIG ANALYSIS AND SUMMARY OF ACTIONS

     NECESSARY TO CLOSE REPORT ........................................ 28

 AUDIT OF OFFICE ON VIOLENCE AGAINST WOMEN GRANT TO 

  REDUCE DOMESTIC VIOLENCE, DATING VIOLENCE, SEXUAL

ASSAULT, AND STALKING ON CAMPUS PROGRAM AWARDED TO 

          EAST CENTRAL UNIVERSITY, OKLAHOMA


                          INTRODUCTION


      The Office of the Inspector General, Audit Division, has
completed an audit of Grant Number 2007-WA-AX-0004, awarded by
the Office on Violence Against Women (OVW), to East Central
University (ECU), Oklahoma, in the amount of $1,699,999 under the
Grants to Reduce Domestic Violence, Dating Violence, Sexual Assault,
and Stalking On Campus Program.

      The Grants to Reduce Violent Crimes Against Women on Campus
Program was authorized by the Higher Education Amendments of
1998, reauthorized by the Violence Against Women Act of 2000, and
then by the Violence Against Women and Department of Justice
Reauthorization Act of 2005. The program provides a unique
opportunity for institutions of higher education to establish
multidisciplinary consortia to combat violent crimes against women on
campuses. These comprehensive efforts are designed to enhance
victim services, implement prevention and education programs, and
develop and strengthen security and investigation strategies in order
to prevent and respond to domestic violence, dating violence, sexual
assault, and stalking crimes on campuses.

       The purpose of this audit was to determine whether
reimbursements claimed for costs under the grant were allowable,
supported, and in accordance with applicable laws, regulations,
guidelines, and terms and conditions of the grant. The objective of our
audit was to assess risks and review performance in the following
areas: (1) internal control environment; (2) drawdowns; (3) grant
expenditures, including personnel and indirect costs; (4) budget
management and control; (5) matching; (6) property management;
(7) program income; (8) financial and progress reports; (9) grant
requirements; (10) program performance and accomplishments; and
(11) monitoring of subgrantees and contractors. We determined that
matching costs, property management, program income, and
monitoring of subgrantees and contractors were not applicable to this
grant. As shown in Exhibit 1, East Central University was awarded a
total of $1,699,999 to implement the grant.




                                  1

EXHIBIT 1:         OVW GRANT AWARDED TO EAST CENTRAL
                   UNIVERSITY
                           AWARD                           AWARD END
   GRANT AWARD                           AWARD DATE                        AWARD AMOUNT
                           TYPE                              DATE
2007-WA-AX-0004            Original      08/28/2007       08/31/2010          $ 999,999
2007-WA-AX-0004          Supplement      09/24/2010       08/31/2012          $ 700,000
                                                                Total:     $ 1,699,999
Source: OJP Grants Management System (GMS)

Background

       The Office on Violence Against Women (OVW) is a component of
the United States Department of Justice (DOJ). Created in 1995, OVW
implements the Violence Against Women Act (VAWA) and subsequent
legislation and provides national leadership against domestic violence,
dating violence, sexual assault and stalking. Since its inception, OVW
has launched a multifaceted approach to responding to these crimes.
By forging State, local and tribal partnerships among police,
prosecutors, the judiciary, victim advocates, health care providers,
faith leaders, and others, OVW grants help provide victims with the
protection and services they need to pursue safe and healthy lives and
enable communities to hold offenders accountable.

East Central University

       ECU is a four-year public university located in the rural city of
Ada, Oklahoma. ECU will serve as the lead institution along with five
member institutions in this flagship initiative. 1 The five member
institutions include Northeastern State University (NSU), Northwestern
Oklahoma State University (NWOSU), Southeastern Oklahoma State
University (SOSU), Southwestern Oklahoma State University
(SWOSU), and the University of Central Oklahoma. All of these
institutions represent the Regional University System of Oklahoma
(RUSO) who will be serving approximately 42,795 students during this
grant.


       1
          Flagship projects consist of two or more institutions of higher education that
share and are accountable to a common legislature, board of regents, governing
board, or system with enforcement capabilities. One institution is designated as the
principle institution and must be able to demonstrate competence and effective
implementation of prior Campus Program awards for at least two grant periods, or four
years. The principle institution will utilize key practices, policies, project activities, and
products already in existence to lead other schools within their system to implement
and incorporate them onto their respective campuses.


                                              2

      The RUSO Violence Prevention Project (VPP) will be the first
attempt in the Oklahoma system of higher education to collectively
and collaboratively address domestic violence, dating violence, sexual
assault and stalking. Of the six institutions, ECU was the only one to
create this specific program to address these issues.

Campus Program

      Domestic violence, dating violence, sexual assault, and stalking
are serious problems on college and university campuses. Addressing
these crimes on campuses raises unique issues and challenges that
Congress sought to address by creating the Grants to Reduce
Domestic Violence, Dating Violence, Sexual Assault, and Stalking on
Campus Program (Campus Program).

       Unlike victims of violence against women in the larger
community, students victimized by other students often face additional
challenges in a “closed” campus environment. For example, a victim
of domestic violence, dating violence, or sexual assault may continue
to live in danger if the perpetrator resides in the same dormitory or
attends the same classes. On smaller campuses, a victim may wish to
remain anonymous but may find this to be virtually impossible in such
an insular environment. Similarly, stalking victims may find it difficult
to escape their tormentors, because the stalker may have a seemingly
“legitimate” reason for remaining in contact with or in proximity to the
victim (e.g., studying in the library). The fear and anguish suffered by
rape victims may continue if they attend the same classes or live in
the same dormitory as the perpetrator. In other cases, a victim may
be harassed by classmates or by a perpetrator’s friends who claim that
the victim “asked for it” or “provoked” the crime. Even changing class
schedules or living arrangements may not eliminate the threat of
encountering the perpetrator on campus.

       Survivors of domestic violence, dating violence, sexual assault,
and stalking from diverse communities frequently confront additional
challenges when seeking assistance. Victims with disabilities may
struggle with obstacles, such as shelters that cannot physically
accommodate them. International students, or the spouses or
partners of international students, may face linguistic or cultural
barriers to obtaining services. Likewise, victims from racial, ethnic,
or religious minority groups may fear discrimination when they
attempt to obtain services.




                                   3

       The Campus Program was designed to enhance victim services,
implement prevention and education programs, and develop and
strengthen security and investigation strategies in order to prevent
and respond to domestic violence, dating violence, sexual assault, and
stalking on campuses. The objectives of the grant were to: 2

  •	 create multi-disciplinary community education response teams
     on each campus;

  •	 develop and establish a mandatory prevention and educational
     program about violence against women for all incoming,
     continuing, and transfer students;

  •	 develop and implement an annual training program for all
     campus police from the six Regional University System of
     Oklahoma, Violence Prevention Project (RUSO-VPP) institutions
     in collaboration with the Oklahoma Coalition Against Domestic
     Violence and Sexual Assault, the Council on Law Enforcement
     Education and Training, and Oklahoma's Peace Officers
     Standards and Training Agency;

  •	 implement training on each campus for disciplinary board 

     members;


  •	 develop and conduct campus and community educational and
     promotional events on violence against women's issues;

  •	 strengthen and improve referral services between campus and
     community services in Ada, Alva, Durant, Edmond, Tahlequah,
     and Weatherford, Oklahoma; and

  •	 expand and improve data collection to measure the outcome of
     the RUSO-VPP.

Our Audit Approach

      We tested compliance with what we consider to be the most
important conditions of the grant. Unless otherwise stated in our
report, the criteria we audit against are contained in the Office of
Justice Programs Financial Guide (OJP Financial Guide) and the award
documents. We tested East Central University’s:


     2
         The supplemental grant strengthened and enhanced the grant objectives.


                                        4

  •	 internal control environment to determine whether the
     internal controls in place for the processing and payment of
     funds were adequate to safeguard grant funds and ensure
     compliance with the terms and conditions of the grants;

  •	 grant drawdowns to determine whether grant drawdowns were
     adequately supported and if East Central University was
     managing grant receipts in accordance with federal
     requirements;

  •	 grant budget management and controls to determine if
     cumulative expenditures were in the normal confines of the
     grant budgets;

  •	 grant expenditures to determine the accuracy and allowability
     of costs charged to the grants;

  •	 Federal Financial Reports and Program Reports to
     determine if the required Federal Financial Reports and Program
     Reports were submitted on time and accurately reflect grant
     activities; and

  •	 grant objectives and accomplishments to determine if East
     Central University met or is capable of meeting the grants’
     objectives.

     These items are discussed in detail in the Findings and
Recommendations section of the report. Our audit objectives, scope,
and methodology are discussed in Appendix I.




                                  5

           FINDINGS AND RECOMMENDATIONS

     We determined that East Central University’s (ECU) policies and
     procedures provided for segregation of duties, transaction
     traceability, and adequate internal controls. We also found that
     ECU was generally in compliance in the following areas:
     financial and program report timeliness, budget management
     and control, and payroll and indirect cost testing. Additionally,
     we did not find any indication that ECU and the member
     institutions have not been on track to accomplish the goals and
     objectives of the grants. However, during our review, we
     identified $307,120 in advanced payments to the member
     institutions that remain unspent because ECU did not base
     drawdowns on actual expenditures. Further, we found
     approximately $18,742 in interest income earned over the life of
     this grant. Finally, the Federal Financial Reports were not based
     on actual expenses and we could not confirm all of the data
     reported in the Program Reports.

Internal Control Environment

      We reviewed ECU’s financial management system, policies and
procedures, and Single Audit Reports to assess ECU’s risk of non­
compliance to laws, regulations, guidelines, and terms and conditions
of the grant. We also interviewed ECU officials regarding payroll,
purchasing, and accounts payable to further assess risk.

Single Audit

      According to OMB Circular A-133, non-federal entities that
expend $300,000 ($500,000 for fiscal years ending after December
31, 2003) or more in a year in federal awards shall have a single or
program-specific audit conducted for that year. According to the
schedule of federal expenditures in the single audit for year ended
June 30, 2010, expenditures of federal awards totaled $38,639,004.
Therefore, ECU was required under OMB Circular A-133 to have a
single audit performed. According to the audit report, the auditors did
not identify any material weaknesses in internal control over financial
reporting or major programs.




                                   6

Financial Management System

      We reviewed ECU’s financial management system to determine
whether there are adequate internal controls for the accounting
system and sufficient separation of duties. After reviewing the
recordkeeping and procurement, receiving, and payment procedures
along with interviewing responsible officials we concluded that there
are adequate internal controls and separation of duties.

Drawdowns

      ECU officials stated that drawdowns were based on
reimbursements of actual expenditures from the accounting records.
The University Comptroller stated that she runs a report on monthly
expenses from the accounting system and bases drawdown requests
on these reports. We reviewed the accounting records and compared
drawdowns to the actual expenditures and found that overall,
drawdowns and accounting records reconcile.

      However, while the drawdowns were based on ECU's accounting
records and expenditures, they were not based on actual expenses
from the member institutions. According to the OJP Financial Guide,
award recipient organizations should request funds based upon
immediate disbursement/reimbursement requirements. Recipients
should time their drawdown requests to ensure that federal cash on
hand is the minimum needed for reimbursements to be made
immediately, or within 10 days.

       However, member institutions were advanced award money
based on their total budgets for both the initial and supplemental
awards. Consequently, we found that not all of the funds that were
advanced to the member institutions have been expended. As seen in
Exhibit 2, of the $1,258,810 advanced to the member institutions,
$307,120 remains unspent. Some of the advanced payments date
back to 2008. The Regional University System of Oklahoma, Violence
Prevention Project (RUSO-VPP) Director stated that if the member
institutions did not receive the funds in advance, then they could not
run the program. Additionally, she stated that a no-cost extension will
be requested so that the institutions have a chance to expend all
award funds. We recommend that ECU revise its policy of advancing
award funds to member institutions and base disbursements on actual
expenses incurred. Further, we recommend that OVW ensure that all
funds drawn down and advanced to the member institutions have been
spent.


                                  7

EXHIBIT 2: AMOUNT UNSPENT BY MEMBER INSTITUTIONS

 BUDGET CATEGORY    AMOUNT ADVANCED        AMOUNT SPENT    AMOUNT REMAINING
Personnel              $   811,058           $ 613,529          $ 197,529
Fringe Benefits            359,869              290,981             68,888
Travel                      14,390                1,751             12,639
Supplies                    61,350               40,763             20,587
Other                       12,143                4,666              7,477
TOTAL                  $1,258,810             $951,690           $307,120
Source: ECU and Member Institution Accounting Records

       In addition, although we were informed by the Account Manager
from the Oklahoma Office of State Treasurer that none of the other
institutions earned interest on their federal funds, we found that two of
the institutions have earned a combined $18,742 in interest income on
the federal funds they were advanced. As seen in Exhibit 3,
Southwestern Oklahoma State University earned $9,442 and
Northwestern Oklahoma State University earned $9,300 in interest due
to the award funds sitting idle in their bank accounts. However,
according to the OJP Financial Guide, the interest earned for this type
of grant is not considered program income. The OJP Financial Guide
states that Institutions of Higher Education return any interest income
earned to the U.S. Department of Health and Human Services. The
OVW Program Manager stated that these institutions must return all
but $250 in interest earned annually. As a result, we recommend that
OVW remedy the interest earned on these grant funds, less the $250
annual interest that may be retained for administrative expenses.

Exhibit 3: INTEREST INCOME EARNED
                   SCHOOL                                 INTEREST EARNED
  Southwestern Oklahoma State University                     $ 9,442
  Northwestern Oklahoma State University                         9,300
                   TOTAL                                     $ 18,742
Source: OJP Grants Management System (GMS)

Budget Management and Control

      According to the OJP Financial Guide, movement of dollars
between approved budget categories without a Grant Adjustment
Notice (GAN) is allowable up to ten percent of the total award amount
for awards greater than $100,000. As noted in Exhibit 1, East Central
University received an initial and supplemental award for a total of
$1,699,999. We compared the approved budgets for this award to the
actual expenditures from ECU’s and the member institutions’



                                      8

accounting records. As shown in Exhibit 4, we determined that grant
expenditures did not exceed any of the budget categories.

EXHIBIT 4: BUDGET MANAGEMENT AND CONTROL 3
                                                                        AMOUNT OVER
     COST CATEGORY            GRANT BUDGET          ACTUAL COSTS          BUDGET
(10-percent threshold is $170,000)

Personnel                      $ 1,008,503          $   761,641        $   (246,862)

Fringe Benefits                    446,744              346,017            (100,727)

Travel                             129,224                83,761            (45,463)

Equipment                                 -                     -                   -

Supplies                            66,872                44,752            (22,120)

Construction                              -                     -                   -

Contracts                            1,800                      -            (1,800)

Other                               12,747                 5,107             (7,640)

TOTAL DIRECT COSTS           $ 1,665,890           $ 1,241,278         $ (424,612)

Indirect Costs                      34,109                   N/A                 N/A

TOTAL COSTS                  $ 1,699,999           $ 1,241,278         $ (424,612)

Source: OJP Grants Management System (GMS) and ECU and Member Institution
Accounting Records

Grant Expenditures

      We reviewed the grant general ledger for ECU and selected a
judgmental sample of 43 transactions, totaling $118,317. However,
we identified $79,964 of this amount as advanced payments made to
the member institutions. As we have previously found in the
Drawdowns section of this report, payments to member institutions
were based on their respective budgets instead of actual expenditures.
During our initial testing, we found that $40,032 of the $79,964
remained unspent. Therefore, we decided to select an additional
sample of 66 transactions in the amount of $24,354 for testing.
Overall, we found that all 109 transactions were properly authorized,
properly classified, accurately recorded and properly supported.




         3
          It should be noted that indirect costs were not factored into our budget
analysis. Indirect costs were included to illustrate total costs when compared to total
grant budgets. Our analysis of indirect costs is noted further in this report.


                                          9

Personnel Costs

       We performed payroll testing to verify that labor charges were
computed correctly, properly authorized, accurately recorded, and
properly allocated to the grant. We judgmentally selected two
nonconsecutive pay periods (November 2010 and May 2011) for ECU
and the member institutions and traced salary costs to payroll records
for testing. We also verified pay rates and positions to those allowed
in the approved budget. We found that for the pay periods selected,
labor charges were computed correctly, properly authorized,
accurately recorded, and properly allocated to the grant. Additionally,
we reviewed the fringe benefit cost pool elements from each
campus and determined them to be reasonable.

Indirect Costs

       According to the approved budget, indirect costs were approved
for this grant. According to ECU officials, the current approved indirect
cost rate is 38.2 percent for on campus programs and 9.8 percent for
off campus programs. However, ECU officials decided to charge the
grant at a four percent rate that was divided according to salary and
fringe benefits among ECU and member institutions. As shown in
Exhibit 5, the indirect cost rate was determined by calculating four
percent of the total budgeted personnel and fringe benefits costs from
the initial award. Indirect costs were not requested or approved in the
supplemental award.

                  Exhibit 5: INDIRECT COST RATE
                             CALCULATION
                      Budget Category                 Amount
                   Personnel                      $     592,170
                   Fringe Benefits                      260,554
                   TOTAL                          $    852,724
                   Indirect Cost Rate                        4%
                   TOTAL IC Approved              $    34,109 4
                  Source: OJP Grants Management System (GMS)

     For indirect costs charged to the grant, we tested a judgmental
sample of 10 indirect cost transactions to determine if they were
       4
          Throughout the report, the differences in the total amounts are due to
rounding, in that the sum of individual numbers prior to rounding reported may differ
from the sum of the individual numbers rounded.


                                        10

correct. We took a summation of personnel and fringe benefit costs
and multiplied the amount by four percent to determine if each indirect
cost charge was calculated correctly. As shown in Exhibit 6, we found
that indirect costs charged to this grant were calculated correctly.


EXHIBIT 6: INDIRECT COST CHARGES TESTED
                                                            Indirect
                                  Amount        Indirect      Cost
Transaction    Transaction        Charged         Cost       Charge    Cumulative
   Date        Description        to Grant    Pool/Basis    Allowed    Difference
 1/13/2009   INDIRECT CHRG        $ 30,047     $ 751,179    $ 30,047       $ 0
 1/23/2009   INDIRECT CHRG             192          4,800        192         0
 2/10/2009   INDIRECT CHRG             193          4,826        193         0
 3/24/2009   INDIRECT CHRG             176          4,410        176         0
 4/15/2009   INDIRECT CHRG             172          4,311        172         0
 7/16/2010   INDIRECT CHRG             174          4,346        174         0
 9/16/2010   INDIRECT CHRG             172          4,311        172         0
 10/4/2010   INDIRECT CHRG             172          4,311        172         0
10/18/2010   INDIRECT CHRG             172          4,311        172         0
11/23/2010   INDIRECT CHRG             164          4,102        164         0
           TOTALS                 $ 31,634     $ 790,907    $ 31,634       $0
Source: ECU Accounting Records



Reports

      According to the OJP Financial Guide, award recipients are
required to submit both financial and program reports. 5 These reports
describe the status of the funds and the project, comparison of actual
accomplishments to the objectives, or other pertinent information. We
reviewed the Federal Financial Reports and Program Reports, and
found that both reports were submitted timely. However, not all
Federal Financial Reports were accurate. Additionally, we could not
confirm all the data submitted in the Program Reports.




      5
          Program Reports are also known as Progress Reports.


                                        11

Financial Reports

       The OJP Financial Guide states that effective for the quarter
beginning October 1, 2009, grant recipients must report expenditures
online using the Federal Financial Report (FFR) no later than 30 days
after the end of each calendar quarter. We reviewed the last four
financial reports submitted and found that all four were submitted
timely.

      The Financial Guide also states that recipients shall report the
summary information on expenditures along with unliquidated
obligations incurred for each quarter of the project on Federal Financial
Reports. As such, we reviewed the last four submitted financial
reports for accuracy by comparing them to the grant accounting
records. As shown in Exhibit 7, we found that two of the four financial
reports were inaccurate. For the financial reports ending December
31, 2010 and March 30, 2011, there was total difference of $345.

EXHIBIT 7: FEDERAL FINANCIAL REPORT ACCURACY
                                                    GRANT       DIFFERENCE
                                                 EXPENDITURES     BETWEEN
                                     GRANT           PER         REPORTS &
REPORT       REPORT PERIOD        EXPENDITURES    ACCOUNTING    ACCOUNTING
 NO.        FROM - TO DATES        PER REPORT      RECORDS        RECORDS
  14     10/1/2010 - 12/31/2010    $ 348,475     $ 348,785        $ 310
  15      1/1/2011 - 3/30/2011       208,922        208,957           35
  16      4/1/2011 - 6/30/2011         15,812        15,812            0
  17      7/1/2011 - 9/30/2011         18,688        18,688          0
                 TOTAL             $ 591,897     $ 592,242       $ 345
Source: OJP Grants Management System (GMS) and ECU Accounting Records

      The ECU official responsible for submitting Federal Financial
Reports explained that the difference is due to the timing of indirect
costs being allocated to the accounting records. Therefore, we will not
take exception to the instances where individual reports were not
accurate because the amounts were immaterial. However, as with our
previous finding in the Drawdowns section of this report, the FFRs
were based on ECU’s accounting records and not actual expenditures,
including those of the member institutions. As a result, we cannot
determine the accuracy of any of the financial reports submitted.
Therefore, we recommend that OVW ensure that ECU revises financial
reports based on actual expenditures.




                                      12

Program Reports

      According to the OJP Financial Guide, Program Reports must be
submitted within 30 days after the end of the reporting periods, which
are June 30 and December 31, for the life of the award. We reviewed
the last four Program Reports and determined that all four were
submitted timely.

       The Financial Guide also states the award recipient agrees to
collect data appropriate for facilitating reporting requirements
established by Public Law 103-62 for the Government Performance and
Results Act. The recipient will ensure that valid and auditable source
documentation is available to support all data collected for each
performance measure specified in the program solicitation. Therefore,
in order to verify the information in Program Reports, we selected a
sample of data from the last two reports submitted and traced it to
supporting documentation maintained by ECU and member institution
officials.

       Overall, some of the supporting documentation provided was
insufficient. We could not confirm all of the data reported in the
Program Reports. According to the Program Director, member
institutions are expected to track the data for Program Reports on an
ongoing basis for their respective campuses. She stated that at the
end of the reporting period, she provides the member institutions with
a report form to input their program data and she compiles the
information into one Program Report that is submitted to OVW.
However, the Program Director stated that many of the numbers
provided for the reports were estimated based on the training being
mandatory for students. In some instances, only a class roster was
provided as evidence for the number of students that attended
mandatory training sessions. However, there is not enough evidence
to confirm whether the students listed on the roster actually attended
the training sessions. We also noted another form of supporting
documentation for Program Report data was in the form of an e-mail
to the Program Director stating which training was provided and the
estimated number of attendees. In addition, the Program Director
stated that some of the coordinators at the member institutions were
unsure which categories to report some of the training events they
held. Therefore, we recommend that ECU and all member institutions
maintain more detailed records in order to provide accurate reporting
for the program.




                                  13

Program Performance and Accomplishments

      As mentioned previously, the program is designed to enhance
victim services, implement prevention and education programs, and
develop and strengthen security and investigation strategies in order
to prevent and respond to domestic violence, dating violence, sexual
assault, and stalking on campuses. Also, the objectives of the grant
awarded to ECU and the member institutions were to:

   •	 create multi-disciplinary community education response teams
      on each campus;

   •	 develop and establish a mandatory prevention and educational
      program about violence against women for all incoming,
      continuing, and transfer students;

   •	 develop and implement an annual training program for all
      campus police from the six Regional University System of
      Oklahoma, Violence Prevention Project (RUSO-VPP) institutions
      in collaboration with the Oklahoma Coalition Against Domestic
      Violence and Sexual Assault, the Council on Law Enforcement
      Education and Training, and Oklahoma's Peace Officers
      Standards and Training Agency;

   •	 implement training on each campus for disciplinary board 

      members;


   •	 develop and conduct campus and community educational and
      promotional events on violence against women's issues;

   •	 strengthen and improve referral services between campus and
      community services in Ada, Alva, Durant, Edmond, Tahlequah,
      and Weatherford, Oklahoma; and

   •	 expand and improve data collection to measure the outcome of
      the RUSO-VPP.

       We determined that the objectives of this grant were qualitative
in nature. The main purpose of this grant was aimed at helping the
five member institutions start the program at their campuses. The
majority of the goals listed above involve prevention, education, and
training for faculty and other staff, students, and law enforcement for
domestic violence, dating violence, sexual assault, and stalking on
campuses. Although we could not verify the data in the Program


                                  14

Reports, based on our review of program and financial records in
addition to interviewing responsible officials, we concluded that each of
the member institutions implemented the program at their campuses.
In addition, we determined that the member institutions established
partnerships with other agencies in the community.

      According to information reviewed during our Program Report
testing and interviews with ECU officials and community partners, we
determined that there is no indication that the program has not been
on track to complete the goals and objectives of the grant.




                                   15

Recommendations

    We recommend that the OVW:

  1. Ensure ECU revise its policy of advancing award funds to
     member institutions and base disbursements on actual expenses
     incurred.

  2. Ensure that all funds drawn down and advanced to the member
     institutions have been spent by the end of the project period.

  3. Remedy the $18,742 in interest earned on these grant funds.

  4. Ensure ECU revises financial reports based on actual 

     expenditures.


  5. Ensure ECU and all member institutions maintain more detailed
     records in order to provide accurate reporting of program
     performance.




                                 16

                                                           APPENDIX I

            OBJECTIVES, SCOPE, AND METHODOLOGY

      The purpose of this audit was to determine whether costs
claimed under the grant were allowable, reasonable, and complied
with applicable laws, regulations, guidelines and terms and conditions.
The objective of our audit was to assess risks and review performance
in the following areas: (1) internal control environment;
(2) drawdowns; (3) grant expenditures, including personnel and
indirect costs; (4) budget management and control; (5) matching; (6)
property management; (7) program income; (8) financial and progress
reports; (9) grant requirements; (10) program performance and
accomplishments; and (11) monitoring of subgrantees and
contractors. We determined that matching costs, property
management, program income, and monitoring of subgrantees and
contractors were not applicable to this grant. As shown in Exhibit 1,
East Central University was awarded a total of $1,699,999 to
implement the grant.

       We conducted this performance audit in accordance with
generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. Our
audit concentrated on, but was not limited to, the award of the
grant on August 28, 2007, through November 30, 2011. This was
an audit of the Grants to Reduce Domestic Violence, Dating
Violence, Sexual Assault, and Stalking On Campus Program, Grant
No. 2007-WA-AX-0004. ECU had a total of $1,578,814 in
drawdowns through October 12, 2011.

      We tested compliance with what we consider to be the most
important conditions of the grant. Unless otherwise stated in our
report, the criteria we audit against are contained in the Office of
Justice Programs Financial Guide and the award documents.

       In conducting our audit, we performed sample testing in two
areas, which were grant expenditures and indirect cost expenditures.
In this effort, we employed a judgmental sampling design to obtain
broad exposure to numerous facets of the awards reviewed, such as
dollar amounts or expenditure category. We identified samples


                                   17

including 109 grant expenditures and 10 indirect cost expenditures.
This non-statistical sample design does not allow projection of the test
results to the universes from which the samples were selected.

       In addition, we reviewed drawdowns, evaluated the timeliness
and accuracy of FFRs and Progress Reports, and evaluated
performance to grant objectives; however, we did not test the
reliability of the financial management system as a whole.




                                   18

                                                APPENDIX II

         SCHEDULE OF DOLLAR-RELATED FINDINGS

          INTEREST EARNED                 AMOUNT      PAGE

 Southwestern Oklahoma State University   $   9,442    8

 Northwestern Oklahoma State University       9,300    8

TOTAL DOLLAR-RELATED FINDINGS             $ 18,742




                              19

                                                                                                    APPENDIX III
                               EAST CENTRAL UNIVERSITY
                             RESPONSE TO THE DRAFT REPORT



                                                           lIDO E. 14th SU .. e" PMil G·8 - Ad;., OK 74820-6999
                                                                   (580) 559-5539 - (SS(l) 312-]790 FAX


Office of Admi ni stration "n d   F;n~nce


        Mr. David M. Shereen
        U.S. Department of Justice
        Office of the Inspector General
        Denver Regional Audit Office
        1120 Lincoln. Suitc ! 500
        Dcnver, Colorado 80203


        RE: East Central University RUSO-VPP Flagship Grant (OV\V) Response to OIG Audit
        Findings and Recommendations

        Dear Mr. Shereen:

        Below arc East Centra! University's responses to OIO's audit findings and recommendations.
        These responses arc categorized according to the location (page numbcr(s» ufthe findings in the
        Dmft Audit Report received Apri! 27, 2012 with excerpts from the report in bold and ECU
        responses in nonna! text.

        Sincerely,



        Jessie Boles, C PA, CFE
        Vice President for Administration and Finance



        Page 7 - Drawdowns:

        Orawdowns were not based on actual expenditures (including member institutions).
        According to the OJP Fillum:iul Guide, award recipient organizations should request funds
        based upon immediate disbursement/reimbursement requirements. Recipients should time
        their drawdown requests to ensure that federal cash on hand is the minimum needed for
        reimbursements to be made immediately. or within 10 days. Of the $1,258,810 advanced to
        the 5 member institutions for personnel, fringe, travel, supplies, and other, $307,120
        remained u n spent as of Nov. 2011.

        When the OVW Flagship want was awarded ECU was asked by OVW to implement the grant
        quickly and smoothly. As the flagship grants were considered a sort of pilot program, never been
        done before, they didn ' t fit wen in any grant or cooperative agreement category. After
        discussion between ECU' s Vice President of Administration and Finance. and other
        Administrators (Presidents, Viee Presidents of Student Development, and Vice Presidents of




                       Oklahmna's Pre m ier St ud ent-Ce nt ered R eg io nal U ni ven;ity




                                                       20

Administration and Finance) on the other campuses within the system, it seemed the best way to
handle the funding was to initially fund each member institution their monies that were allocated
in the budget. Because university budgets arc prepared a year in advance, there was no room in
any of the institutions budgets to suddenly open a program office on eampu~ and hire a totally
new position, Many of the institutions would likely have not participated in the grant had they
been asked to financially front the program, office, and position, and most ifnot all of them had
and continue to have insufficient institutional funds to do so. Higher education in Oklahoma has
seen continual cuts in State funding over the last live years, fostering an environment of great
unease among institutions in implementing any new program, especially requiring a totally new
full -time position, without funding in hand. In hindsight, treating member institutions as sub­
recipients might have been beller, but three weeks to pull all six universities together in
agreement and submit the application with memorandums of understanding, was not conducive
to doing so.

All expenditures of grant funds were accounted for and processed through the Office of State
Finance, and the controller of caeh institution rcqui red the same documcntation and justification
as their other funds, in fact even more. Expenditures were monitored by ECU, and if there was
ever a question of allowable cost, OVW or OJP was contacted. All expenditures were well­
documented and allowable. At various times throughout the grant period, different universities
asked questions regarding their budgets and when the program director requested infonnation
and documentation, sen! their accounting spreadsheets to ECU for review. Additionally, prior to
IDC allocations and continuation funding being dispersed, all member institutions were required
to submit a full accounting ofthcir grant expenditures, along with a statement regarding the
exhaustion of funds . Each institution agreed to continue the program, even through a no-cost
extension of the grant, until all grant funding is exhausted.

Regarding the unspent funds as of November 2011, already approximately S 130,000 oftha! has
been depIcted, which is on track for total exhaustion by the end o f 20 12, if not sooner for at least
two of the member institutions. All funds will be exhausted by each university. In fact, ECU
required that the universities sign statements that they will exhaust all grant funds, and ECU
infonned them all that we will request a no-cost extension at least through December 2012 in
order to do so. ECU and the member institutions will continue to keep an accurate and thorough
accounting of all expenditures, until all funds arc exhausted.

ECU will work to revise their policy regarding DOJ grant aW!lrds. This policy will include the
drawdown of funds based on expenditures only. If additional institutions require funding in
advance, they will be treated as a sub-recipient, subject to ECU monitoring as well as financial
and program progress reporting to DOJ.

Page 8 - Drawdowns: (Exhibit 3 Interest Income Earned)

As a result of the excess funds sitting in bank accounts, we found that two of the
institutions have earned a combined $18,742 in interest income on the federa l funds they
were advanced ($9,442 for SWOSV and $9,300 for NWOSV)_ The DJP Financial Guide
states that Institutions of Higher Education return any interest income earned to the U.s.
Department of Health and Human Services,




                                                21

ECU was unaware of this occurrencc. Our own 430 account at OSF, and most other 430
accounts at OSF, are non ~ interest-eaming accounts. It was assumed that because the funds were
in a 430 account, thcy wcre in the samc account type as the other 4 institutions. ECU has already
discussed this with the two member institutions and the interest earned will be returned to OVW.

Page 12 - Reports: (Exhibit 7: Federal financial Report Accuracy)

\Ve found that two of the four financial reports were inaccurate. For the financial reports
ending December 31, 2010 and March 30, 2011 , there was total difference of$345. EC U
officials explained that the difference is due to the timing of indirect costs being allocated to
the accounting records. Therefore, we will not take exception to the instances where
individual reports were not accurate because the amounts were immaterial. However, as
with our previous finding in the Drawdo w".~ section of this report, the FFRs were based on
EC U's accounting r ecords and not actual expenditures, including those of the member
institution s. As a result, we cannot determine the accuracy of any of the financial reports
submitted.

See response above in drawdowns section. ECU's financial reports arc accurate, according to
how the payments to institutions were handled. All member institution accounting documents
were provided to OIG, and all samples were well-documented, allowable, and justifiable. The
documents can be provided to OVW or the issue otherwise remedied as deemed ap propriate by
OVW.

Pages 12 and 14 - Reports:

" Additionally, we could not confirm all the data submitted in the Program Reports."
" Overall, some of the supportinJ:!: documentation provided was insufficient. We could not
confirm all ofthe data report in the Program Reports. Aceordin~ to the Program Director,
. . . many ofthe numbers provided for the rcports were estimated bascd 011 the training
being mandatory for students. In some instances, only a class roster was provided a s
cvidenee for the number of students that attended mandatory training sessions. However,
there is not enough evidence to confirm whether the students listed on the roster actually
attended the trailling sessions. \Ve also notcd another form of supporting documentation
for Program Report data was in the form of an e-mail to the Program Director stating
which training was provided and the estimated number of attendees. Some of the
coordinators at the memher institutions were unsure which categories to report some ofthe
training events they held."

Most data in the RUSO-V PP program reports is based on actual class rosters, sign-in sheets, and
head counts, and is very accurate, while there arc some catcgorics that include cvcnts with
attendees that arc not as easily counted . Services to Victims, a very important part o f the RUSO­
VPP program and one of its main objectivcs, was reported in perfect accuracy, well-documented,
and valid. [nfonnation regarding incoming students was also reported accurately and well­
documented as were most events at the member institutions.




                                               22

OVW is aware that one institution docs not require mandatory orientation, and that capturing all
the incoming students for cducation is a challenge. OVW is also wel!-aware that all the
universities have some difficulty in capturing 100% due to absences/no-shows to the mandatory
classes_ Most of the universities have a follow-up policy for that, and they depcnd on the
instructor of the specific class \0 identify those absent that day. A class roster is used to do this,
just like an instructor uses a roster. When absent studcnts arc identified, they arc contacted,
provided educational materials in the next class they attend, or are required to view the session
online or on video. Rosters are frequently used on campuses, obviously in almost every course,
as a record of attendanec. This is no different for our education sessions in those courses. Olher
education is done via online methods and is sent out to all incoming students, Or the entire
student population that semester. To handle these events in any other way (i.e. require
signatures by a roster, etc) is detrimental to attendance, enthusiasm of students, participation,
and to the grant program itsclf, because I) these programs arc run by I-person, who is usually
the speaker/trainer; 2) it would take at least an hour before each evenllo just get pl:ople through
the door; 3) this would tum students and attendees off and they would not want to go back to
another event; 4) it makes it more ofa closed forum when we usually want these to be open to as
many attendees as possible; and 5) as a whole, this is the opposite of what we are trying to do,
which is to cducate, train, and provide awareness to as many people as possible.

To say that somc of the documentation was insufficient seems somewhat subjective. RUSO­
VPP stands by our methods of estimating numbers for events that are not mandatory, registered,
or enrolled _ If you have an awareness or educational event in a location with 500 chairs set up
and you have numerous attendees standing, with few or no scats vacant, an educated,
conservative, and fairly accurate estimate is that 500 people attended. If you arc at a community
event that serves free hotdogs (i.e. national night out or other campus/community event), and
there are 500 hotdogs, an educated and conservative estimate is 400 or so (assuming some will
cat two hotdogs). If you are at a football game that is ticketed, you can assume with fairly good
accuracy, the tickets/entries are pretty accurate, although conservative, because look at the
players, cheerleaders, student groups, etc., that Jon·t rcquire a ticket. If you are at an event and
someone trics to get a headcount, this is difficult, but can get you to a fairly good estimate. If
you see administrators and community officials there, thcy arc usually pointed out and
welcomed, and we know how many are there, which is recorded. If we have an awareness event
in the University Center with lots of foot traffic, we always try to get a sign in sheet and have
people sign in, but students don't like to sign their names on things like this, so wc try to count or
mark as we sec people coming to our tables or vicwing our materials, displays, etc.

In my experience as a fonner coordinator, and now as a Director and tcam member attending
these cvents, our estimates are very conservative. It is obvious that all the coordinators arc
conscientious and diligent in their reporting. Thcy arc able to provide numbers of administrators,
athletes, law enforcement, student groups, Greeks, community members, etc. for each event.
TIlis indic.1tes they arc vcry aware and make a conccntrated cffort to provide accurate totals and
breakdowns ofpeoplc attending. To say that they are just estimates implies that these events are
immaterial and that we have simply thrown numbers on a report, which is absolutely not the
case.




                                                23

Lastly, thc report for the Flagships is the same report used for campus programs, and there is no
avenue to separate each member's data in that report form . This is a somewhat flawed process,
therefore, the RUSO-VP P director required each membcr to submit to ECU their own report to
have on file. Yes, the aggregate report is not a perfect portrait of each member's activities, but it
is the best we have, because it is the fonn we are required to usc. Yes, some activities are
somewhat informal and are not the type of event that we can gain signatures of attendees,
resulting in minimal documentation, but they arc still cvents and are still reportable. There arc
also many instances of awareness events that we cannot event track, bccause they arc monthly
campaigns with posters, emails, etc. Many of our objectives have qualitative results, not easily
measun.:d. Wc know we reach people because our contacts and visits increase, but wc cannot
track these events. Some events blur the lines betwccn education and training, often consisting
of both. TIlis makes it a judgment call by the coordinator whether to report it as training or
education or to divide it. Again, this makes it difficult to n.-port, especially on an aggregate
report. And, often members will put a statement in their narrative about it.

Eeu and RUSO-VP P is continually striving toward more accurate, yet still efficient, counting
and measun. ments. Possible solutions and remedics for this issue to require coordinator to
            :
complete a basic cvcnt form from now on, outlining the event and reporting the attendance,
including how it was measured, and maybe some qualitative data such as quotes, visits resulting
from the event, etc. These could bc outlined in report narrative and provided as attachments if
ovw requests them. ECU will remedy this solution as agreed upon by OVW and Grant Staff.




                                                24

                                                                                                     APPENDIX IV
                OFFICE ON VIOLENCE AGAINST WOMEN
                  RESPONSE TO THE DRAFT REPORT

                                                      u.s. Department or Justice
                                                      Office on VIo le nce Agai nst Women




                                                      ].1;- <1""~",,,.
                                                          r              n. C 20530

                                                                                      June 19,2012


MEMORANDUM


TO:                    David Sheeren
                       Regional Audit Manager
                       Denver Regional Audit Office

FROM:                  Bea Ha nson _ j7 1./
                       ActiHg Director 'yr
                       Office on Violence Against Women

                       Rodney Samuels        ~2,
                       Audit Liaison/Staff Accountant
                       Office on Violence Against Women

SUBJECT:               Audit or the Office on Violence Against W omen Grant to Reduce
                       Domestic Violence, Dating Violence, Sexual Assault, and Stalking on
                       Campus Program Awarded to East Central University in Ada, Oklahoma
                       (ECU)


This memorandum is in response to yo ur correspondence dated April 27, 2012 transmitting the
above draft audit report fo r ECU. We consider the subject report resolved and request written
acceptance of this action from your oflice.

The rcport contains five recommendations a nd $18,742 in unal lowable interest carned on these
grant funds. The Ofliee o n Violence Against Womcn (OVW) is committed to working with the
grantee to address eaeh item and bring them to a close as quic kl y as possible. The following is
an analysis of the audit recommendations:


      I ) Ensure that the ECU revise its poliey or advancing award runds to member
          institutio ns a nd base d isbursements un actual cxpcnses incurred.

         After review of the O IG Report refcrc nced above and the response submitted by the
         ECU. OVW will coordinate with the grantee to obtain the nece.'lsary supporting
         documentation to ensure that the ECV revise its policy of advancing award funds to
         member institutions and bas!;: disbursements on actual expenses incurred.




                                                25

       2) Ensure that a ll funds drawn down a nd advanced to the member institutions ha\'c
          been spent by the end of the project period.

          After review of lhe OIG Report referenced above and the response submitted by the
          ECV, OVW will coordinate with the grantee to ensure that all funds drawn down and
          advanced to the member institutions have been spent by the end oflhe project period.

       3) Remedy the $18,742 in inter est earned on these grant funds.

          After review orlhe OIG Report referenced above and the response submitted by the
          ECU, OVW will coordinate with the grantee to obtain the necessary supporting
          documentation to remedy the $18,742 in interest earned on these grant funds.


       4) Ensure ECU revises financial reports based on actual expenditures.

          After review orlhe oro Report referenced above and the response submitted by the
          ECU, OVW will coordinate with the grantee to obtain the necessary supporting
          documentation to ensure that ECU revises financial reports based on actual
          expenditures.

       5) Ensure ECU and all member inSlitutions maintain more dela iled records in order
          10 provide accurate reporling of program perfurmance.

          After review of the OIG RelXlrt referenced above and the response submitted by the
          ECU, OVW will coordinate with the grantee to obtain the necessary supporting
          documentation to ensure that the ECU implements procedures to effectively provide
          oversight to its contractors.


We appreciate the opportunity to review and comment on the draft report. We will continue to
work with ECU to addrcss the recommendations. If you have any questions or require
additional information, please contact Rodney Samuels of my staff at (202) 514-9820.




cc :      Louise M. Duhamel
          Acting Assistance Director
          Audit Liaison Group
          Justice Management Division

          Angela Wood
          Budget Officer
          Office on VioLence Against Women




                                                 2




                                                 26

Latinisha Lewis
Program Specialist
Office on Violence Against Women




                                   3




                                   27

                                                              APPENDIX V

                 OFFICE OF THE INSPECTOR GENERAL

                ANALYSIS AND SUMMARY OF ACTIONS 

                   NECESSARY TO CLOSE REPORT


      The OIG provided a draft of this audit report to OVW. The OVW’s
response is incorporated in Appendix IV of this final report. The following
provides the OIG analysis of the response and summary of actions necessary
to close the report.


Recommendation Number

1.	   Resolved. OVW concurred with our recommendation to ensure ECU
      revise its policy of advancing award funds to member institutions and
      base disbursements on actual expenses incurred. OVW stated in its
      response that it will coordinate with ECU to obtain the necessary
      supporting documentation to ensure that the ECU revise its policy of
      advancing award funds to member institutions and base
      disbursements on actual expenses incurred.

      This recommendation can be closed when ECU provides the OIG with
      a copy of its newly implemented policy of basing drawdown of funds
      on expenditures only.

2.	   Resolved. OVW concurred with our recommendation to ensure that
      all funds drawn down and advanced to member institutions be spent
      by the end of the project period. OVW stated in its response that it
      will coordinate with ECU to ensure that all funds drawn down and
      advanced to member institutions have been spent by the end of the
      project period.

      This recommendation can be closed when ECU provides the OIG with
      documentation that all funds have been expended.

3.	   Resolved. OVW concurred with our recommendation to remedy the
      $18,742 in interest earned on grant funds. OVW stated in its
      response that it will coordinate with ECU to obtain the necessary
      supporting documentation to remedy the $18,742 in interest earned
      on these grant funds.

      This recommendation can be closed when ECU provides the OIG with
      documentation that the funds have been returned.


                                    28

4.	   Resolved. OVW concurred with our recommendation to ensure ECU
      revises financial reports based on actual expenditures. OVW stated in
      its response that it will coordinate with ECU to provide the necessary
      supporting documentation to ensure that ECU revises financial reports
      based on actual expenditures.

      ECU stated in its response that its financial reports were accurate.
      Although member institution financial records and supporting
      documentation were provided to the OIG, we found that the advanced
      funds were not spent timely. Over $300,000 advanced to member
      institutions remained unspent at the time of our audit. In addition,
      financial reports to OVW were only based on ECU’s financial records of
      advancing funds to the member institutions. However, financial
      reports must reflect actual expenses rather than funds advanced to
      member institutions.

      This recommendation can be closed when ECU provides the OIG with
      appropriate documentation that it has revised the financial reports to
      be based on actual expenditures.

5.	   Resolved. OVW concurred with our recommendation to ensure ECU
      and all member institutions maintain more detailed records in order to
      provide accurate reporting of program performance. OVW stated in
      its response that it will coordinate with ECU to obtain the necessary
      supporting documentation to ensure that ECU implements procedures
      to effectively provide oversight to its contractors.

      ECU stated in its response that the OIG seemed somewhat subjective
      in its analysis and testing of the program reports. In addition ECU
      stated that its program reports were, in fact, accurate. However, ECU
      also acknowledges it has estimated attendance for program events.
      During our analysis and testing of supporting documentation for
      program reports, we were not provided with all of the documents to
      support some of the numbers reported. The OIG must base its
      conclusions on the evidence provided and not verbal and e-mail
      estimates of attendees provided by the member institutions. It is
      imperative that member institutions document and maintain more
      detailed and accurate records for program reports.

      This recommendation can be closed when ECU provides the OIG with
      a copy of the new form that captures all pertinent information from
      grant-funded events.



                                     29

